APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 8, 2021) ........................... 1a
District Court of Tulsa County, State of
Oklahoma, Findings of Fact and Conclusions
of Law (November 12, 2020) ................................... 12a
Agreed Stipulation
(September 25, 2020)........................................ 18a
Muscogee (Creek) Nation Enrollment
Verification (August 27, 2020) ........................ 21a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 21, 2020) .................................................... 23a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 8, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
TRAVIS DRAY STEWART,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.
________________________
Case No. C-2017-1223
An Appeal from the District Court of Tulsa County,
the Honorable Tracy L. Priddy District Judge
Before: Dana KUEHN, Presiding Judge,
Scott ROWLAND, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, David B. LEWIS, Judge,
Robert L. HUDSON, Judge.
OPINION
HUDSON, JUDGE:
Petitioner, Travis Dray Stewart, was charged in
Tulsa County District Court, Case No. CF-2010-4428,
with Child Sexual Abuse, After Former Conviction
of Two Felonies, in violation of 10 O.S.Supp.2002,

App.2a
§ 7115(E).1 Petitioner entered a blind guilty plea to
the charge on May 15, 2012, before the Honorable Dana
Kuehn, Associate District Judge. The trial court
accepted Petitioner’s plea and deferred sentencing
pending the completion and filing of a presentence
investigation report. On June 29, 2012, Judge Kuehn
sentenced Petitioner to thirty years imprisonment
and a $500.00 fine. Petitioner must serve 85% of his
sentences before becoming eligible for parole consideration. 21 O.S.Supp.2002, § 13.1.
On July 9, 2012, Petitioner filed a motion to
withdraw his blind plea. A hearing on Petitioner’s
motion was held on November 21, 2017, before the
Honorable James Caputo, District Judge.2 After
hearing testimony from Petitioner and plea counsel,
along with argument from counsel for both parties,
Judge Caputo denied Petitioner’s motion to withdraw
his plea. Petitioner now seeks a writ of certiorari.
In Proposition One, Petitioner claims the District
Court lacked jurisdiction to accept his plea. Petitioner
argues that he is a citizen of the Creek Nation and the
crime occurred within the boundaries of the Creek
Reservation. Pursuant to McGirt v. Oklahoma, 140
S.Ct. 2452 (2020), Petitioner’s claim raises two separate questions: (a) his Indian status; and (b) whether
1 Both the Information and Judgment and Sentence cite Section
843.5 of Title 21 as the statute violated by Petitioner. The alleged
crime occurred between June 1, 2003, and September 13, 2005.
Section 7115 of Title 10 was not renumbered as 21 O.S.Supp.
2009, § 843.5 until May 21, 2009. Thus, the version of the child
sexual abuse statute in effect at the time of Petitioner’s crimes
was Section 7115 of Title 10.
2 The delay in Petitioner’s withdrawal hearing is the subject of
Petitioner’s Proposition Two.

App.3a
the crimes occurred on the Creek Reservation. These
issues require fact-finding. We therefore remanded
this case to the District Court of Tulsa County for an
evidentiary hearing.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we requested
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Petitioner’s presentation
of prima facie evidence as to Petitioner’s legal status
as an Indian and as to the location of the crime in
Indian Country, the burden shifts to the State to
prove it has jurisdiction. The District Court was
ordered to determine whether Petitioner has some
Indian blood and is recognized as an Indian by a
tribe or the federal government. The District Court
was further ordered to determine whether the crimes
in this case occurred in Indian Country. In so doing,
the District Court was directed to consider any evidence the parties provided, including but not limited
to treaties, statutes, maps, and/or testimony.
We also directed the District Court that in the
event the parties agreed as to what the evidence would
show with regard to the questions presented, the
parties may enter into a written stipulation setting
forth those facts upon which they agree and which
answer the questions presented and provide the stipulation to the District Court.
The District Court was also ordered to file written
findings of facts and conclusions of law with this
Court.
A status hearing was held in this case on September 25, 2020, before the Honorable Tracy L. Priddy,

App.4a
District Judge. Thereafter, a written findings of fact
and conclusions of law was timely filed with this
Court. The record indicates that appearing before the
District Court on this matter were attorneys from the
Oklahoma Attorney General’s Office, the Tulsa County
District Attorney’s Office and counsel for Petitioner.
In its written findings of fact and conclusion of
law, the District Court stated that the parties have
stipulated that Petitioner has a blood quantum of
1/16; that Petitioner is a citizen of the Creek Nation
and was so at the time of the charged crime; that the
Creek Nation is an Indian Tribal Entity recognized
by the federal government; the verification for
Petitioner’s tribal enrollment and blood quantum are
attached to the written stipulation submitted by the
parties; and the crimes charged in this case occurred
within the boundaries of the Creek Reservation. The
District Court attached as Exhibit 1 to its findings of
facts and conclusions of law a document entitled
Agreed Stipulation signed by all counsel reflecting
these stipulations.
The District Court adopted the stipulations made
by the parties and concluded in its findings of fact
and conclusions of law that Petitioner has some
Indian blood, that he is also recognized as an Indian
by a tribe or the federal government and therefore
Petitioner is an Indian. Finally, the District Court
adopted the stipulation of the parties that the crimes
in this case occurred on the Creek Reservation and,
thus, found the crimes occurred in Indian Country
for purposes of federal law.
On November 24, 2020, the State filed with this
Court a supplemental brief after remand. In its brief,
the State acknowledges the District Court accepted the

App.5a
parties’ stipulations as discussed above and references
the District Court’s findings. The State contends in
its brief that should this Court find Petitioner is
entitled to relief based on the District Court’s findings, this Court should stay any order reversing the
conviction for thirty (30) days so that the appropriate
authorities can review his case, determine whether it
is appropriate to file charges and take custody of
Petitioner. Cf. 22 O.S.2011, § 846.
After thorough consideration of this proposition
and the entire record before us on appeal including
the original record, transcripts and the briefs of the
parties, we find that under the law and evidence
relief is warranted. Based upon the record before us,
the District Court’s findings of fact and conclusions
of law are supported by the stipulations jointly made
by the parties on remand. We therefore find Petitioner
has met his burden of establishing his status as an
Indian, having a blood quantum of 1 / 16 Creek blood
and being a member of the Creek Nation. We further
find Petitioner met his burden of proving the crimes
in this case occurred on the Creek Reservation and,
thus, occurred in Indian Country.
Pursuant to McGirt, we find the State of Oklahoma
did not have jurisdiction to prosecute Petitioner in
this matter.3 The Judgment and Sentence in this
3 I maintain my previously expressed views on the significance
of McGirt, its far-reaching impact on the criminal justice system
in Oklahoma and the need for a practical solution by Congress.
See Bosse v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson, J.,
Concur in Results); Hogner v. State, 2021 OK CR 4, ___ P.3d ___
(Hudson, J., Specially Concurs); and Krafft v. State, No. F-2018-340
(Okl.Cr., Feb. 25, 2021) (Hudson, J., Specially Concurs) (unpublished).

App.6a
case is hereby reversed and the case remanded to the
District Court of Tulsa County with instructions to
dismiss the case.4
DECISION
The Petition for Writ of Certiorari is GRANTED.
The Judgment and Sentence of the District Court is
REVERSED AND REMANDED WITH INSTRUCTIONS TO DISMISS. The MANDATE is not to be
issued until twenty (20) days from the delivery and
filing of this decision.5
AN APPEAL FROM THE DISTRICT COURT
OF TULSA COUNTY THE HONORABLE
TRACY L. PRIDDY DISTRICT JUDGE
APPEARANCES AT TRIAL
Danny Joseph
Nicollette Brandt
Okla. Indigent Def. System
P.O. Box 926
Norman, OK 73070
Counsel for Defendant

4 This disposition renders moot the other seven propositions
raised in Petitioner’s brief in chief.
5 By withholding issuance of the mandate for twenty days, the
State’s request for time to determine further prosecution is
rendered moot.

App.7a
Eric Grayless
First Asst. District Atty.
Tulsa County
500 South Denver Ave
Suite 900
Tulsa, OK 74103
Counsel for the State
Mike Hunter
Okla. Attorney General
Jennifer Crabb
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for the State
APPEARANCES ON APPEAL
Lisbeth L. McCarty
Okla. Indigent Def. System
P.O. Box 926
Norman, OK 73070
Counsel for Petitioner
Mike Hunter
Okla. Attorney General
Randall Young
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Respondent
OPINION BY: HUDSON, J.
Kuehn, P.J.: Recused
Rowland, V.P.J.: Concur
Lumpkin, J.: Concur in Results
Lewis, J.: Concur in Results

App.8a
LUMPKIN, JUDGE
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at
a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S. Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt, I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas, I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded to do what an average citizen who had been
fully informed of the law and facts as set out in the
dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’s
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.9a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.6
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
6 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white sections with whom they would trade
and associate. I just cannot get through my mind how
this bill can possibly be made to operate in a State of
thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could look
forward to building up huge reservations such as we have granted
to the Indians in the past.” Id. at 157. In 1940, in the Foreword
to Felix S. Cohen, Handbook of Federal Indian Law (1942),
Secretary of the Interior Harold Ickes wrote in support of the IRA,
“[t]he continued application of the allotment laws, under which
Indian wards have lost more than two-thirds of their reservation
lands, while the costs of Federal administration of these lands
have steadily mounted, must be terminated.” (emphasis added).

App.10a
with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate that
I fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian
reservations in the state had been disestablished and
no longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect to
our Federal-State structure. I simply believe that
when reasonable minds differ they must both be
reviewing the totality of the law and facts.

App.11a
LEWIS, JUDGE, CONCURRING IN RESULTS:
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I concur in the decision
to dismiss this case for the lack of state jurisdiction.

App.12a
DISTRICT COURT OF TULSA COUNTY,
STATE OF OKLAHOMA, FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(NOVEMBER 12, 2020)
IN THE DISTRICT COURT IN AND FOR
TULSA COUNTY, STATE OF OKLAHOMA
________________________
TRAVIS DRAY STEWART,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
Tulsa County District Court Case No. CF-2010-4428
Court of Criminal Appeals Case No. C-2017-1223
Before: Tracy L. PRIDDY, District Judge.
FINDINGS OF FACTS AND
CONCLUSIONS OF LAW
This matter came on for a status conference on
September 25, 2020 pursuant to the remand order of
the Oklahoma Court of Criminal Appeals (“OCCA”)
issued August 21, 2020. Danny Joseph appeared on
behalf of Petitioner, Travis Dray Stewart, whose
appearance was waived. Assistant Attorney General
Jennifer Crabb appeared for Respondent. Tulsa County
First Assistant District Attorney Erik M. Grayless

App.13a
also appeared. An evidentiary hearing was not held
pursuant to the parties’ announcement that they had
agreed and stipulated to facts supporting the issues
to be determined by this Court.
The Petitioner, in Proposition One of his application claims the District Court lacked jurisdiction to
accept his plea as he is a citizen of the Creek Nation
and that the crime occurred within the boundaries of
the Creek Reservation. Petitioner’s claim raises two
questions: (a) his Indian status, and (b) whether the
crime occurred on the Creek Reservation. These issues
require fact-finding to be addressed by the District
Court per the OCCA Order Remanding.
I. Petitioner’s Status as an Indian
To determine the Indian status of the Petitioner,
the OCCA directed the District Court to make findings
of fact as to whether (1) Petitioner has some Indian
blood, and (2) is recognized as an Indian by a tribe or
the federal government.1 The Court finds as follows:
Findings of Fact
1. Travis Dray Stewart is the named Defendant/
Petitioner in the above-entitled matter.
2. The parties filed an Agreed Stipulation on
September 25, 2020 which incorrectly identifies Travis
Dray Stewart as Appellant, but will be referred to by
this Court as Petitioner.

1 United States v. Diaz, 679 F. 3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F. 3d 1277, 1280-81(10th Cir. 2001).
Generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.

App.14a
3. The parties hereto stipulated and agreed that
Mr. Stewart has a blood quantum of 1/16.2
4. The parties hereto stipulated and agreed that
Mr. Stewart is a citizen of the Creek nation as of February 7, 1990 and was so at the time of the crime.3
5. The parties hereto stipulated and agreed that
the Creek Nation is an Indian Tribal Entity recognized
by the federal government.4
6. The verification for Mr. Stewart’s tribal
enrollment and blood quantum are attached to this
stipulation and the parties agree they should be
admitted into the record of this case.5
Conclusions of Law
Regarding the first determination, the Court
answers the first inquiry in the affirmative. The Court
adopted the parties’ Agreed Stipulation including the
attached documentation from the Muscogee (Creek)
Nation of Oklahoma Citizenship Board filed on September 25, 2020 and made findings of fact thereon.
Travis Dray Stewart has a Creek blood quantum of
1/16. Although the term “Indian” is not statutorily
defined and various terms such as “sufficient”6, “substantial”7, “significant percentage of”8 or “some”9 have
2 Exhibit 1, Agreed Stipulation 1A.
3 Exhibit 1, Agreed Stipulation IB.
4 Exhibit 1, Agreed Stipulation 1C.
5 Exhibit 1, Agreed Stipulation 1D.
6 United States v. LaBuff, 658 F. 3d 873, 874-75 (9th Cir. 2011)
7 Vialpando v. State, 640 P.2d 77, 79-80 (Wyo. 1982).

App.15a
been used by courts in an attempt to define the quantity
of Indian blood required to satisfy this inquiry, the
OCCA mandate ordered this Court to determine
“whether the Petitioner has some Indian blood.”10
Thus, according to the term used by the OCCA in its
Order, this Court concludes Travis Dray Stewart has
some Indian blood.
Additionally, the Court answers the second part
of the inquiry in the affirmative. The Court adopted
the Agreed Stipulation and made findings of fact
thereon. Travis Dray Stewart was a citizen of the
Muscogee (Creek) Nation as of February 7, 1990 and
was so at the time of the crime. The Creek Nation is
an Indian Tribal Entity recognized by the federal
government. Therefore, Travis Dray Stewart is
recognized as an Indian by a tribe or the federal government.
Having answered both inquiries in the affirmative,
this Court concludes Travis Dray Stewart is an Indian.
II. Whether the Crime Occurred
on the Creek Reservation
The OCCA further ordered the District Court to
determine whether the crime occurred on the Creek
Reservation, referred to as Indian Country.11 The
Court finds as follows:
8 Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
9 United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012).
10 Order Remanding for Evidentiary Hearing August 21, 2020.
11 McGirt v. Oklahoma, 140 S.Ct. 2452 (2020); 18 U.S.C. §§ 1152,
1153.

App.16a
Findings of Fact
1. The parties hereto stipulated that the crime
in this case occurred within the Creek reservation
boundaries.12
Conclusions of Law
The final inquiry is answered in the affirmative.
This Court adopted the parties’ Agreed Stipulation and
made findings of fact thereon. Although, the specific
address and location of the crime of child sexual abuse
was not included as a stipulation by the parties,
Petitioner’s brief identifies the address where the
crime took place as 3611 S. Lakewood Avenue, Tulsa,
Oklahoma.13 The parties agreed that the location
where the crime occurred was within the Creek Reservation boundaries. These boundaries were established
through a series of treaties between the Muscogee
(Creek) Nation and the United States Government,
and are explicitly recognized as a reservation defined
by 18 U.S.C. § 1151(a). Based upon the Supreme
Court’s ruling in McGirt v. Oklahoma, 140 S. Ct.
2452, 207 L.Ed.2d 985 (2020), this Court concludes
that the crime occurred on the Creek Reservation
which is Indian Country.
WHEREFORE, this Court finds that Travis Dray
Stewart is an Indian and that the crime for which he
was convicted occurred in Indian Country for purposes
of the General Crimes Act, 18 U.S.C. § 1152 and the
Major Crimes Act, 18 U.S.C. § 1153.

12 Exhibit 1, Agreed Stipulation 2A.
13 Brief of Petitioner, May 8, 2018, p. 5.

App.17a
IT IS SO ORDERED this 12th day of
November, 2020.
/s/ Tracy L. Priddy
District Judge

App.18a
AGREED STIPULATION
(SEPTEMBER 25, 2020)
IN THE DISTRICT COURT OF TULSA COUNTY
STATE OF OKLAHOMA
________________________
TRAVIS DRAY STEWART,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case Nos. C-2017-1223, CF-2010-4428
AGREED STIPULATION
The Oklahoma Court of Criminal Appeals (OCCA)
remanded this matter for an evidentiary bearing pursuant to the recent decision in McGirt v. Oklahoma,
140 S. Ct. 2452 (2020), to determine Mr. Stewart’s (a)
Indian status and (b) whether the crime occurred on
the Creek Reservation. The parties have reached the
following stipulations.
1. Regarding the status of the Appellant:
A.

Mr. Stewart has a blood quantum of 1/16.

B.

Mr. Stewart is a citizen of the Creek Nation
as of February 7, 1990 and was so at the
time of the crime.

App.19a
C.

The Creek Nation is an Indian Tribal Entity
recognized by the federal government.

D.

The verification for Mr. Stewart’s tribal
enrollment and blood quantum are attached
to this stipulation and the parties agree
they should be admitted into the record of
this case.

2. Regarding the location of the crime:
A.

The crime in this case occurred within the
Creek reservation boundaries.

The parties therefore request that this Court
accept the stipulations.
Respectfully submitted,
/s/ Danny Joseph, No. 32812
Nicollette Brandt, No. 30996
General Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, Oklahoma 73070
(405) 801-2727
/s/ Jennifer Crabb, No. 20546
Oklahoma Attorney General’s Office
Assistant Attorneys General
313 N.W. 21st Street
Oklahoma City, OK 73105
(405) 521-3921

App.20a
/s/ Erik Grayless, No. 21197
Oklahoma Attorney General’s Office
Assistant Attorney General
313 N.W. 21st Street
Oklahoma City, OK 73105
(405) 521-3921

App.21a
MUSCOGEE (CREEK) NATION
ENROLLMENT VERIFICATION
(AUGUST 27, 2020)
THE MUSCOGEE (CREEK) NATION
OF OKLAHOMA CITIZENSHIP BOARD

Director
Nathan Wilson
Managers
Allan Colbert Jr.
Andy Proctor
Board Members
Joan Henson
Elizabeth Yahola
Clarence Johnson
LeaAnn Nix
_______________________________________
DATE: 8/27/2020
TO: Whom It May Concern:
FROM: Muscogee (Creek) Nation
Citizenship Board
PO Box 580
Okmulgee, OK 74447
Subject: Enrollment Verification

App.22a
RE:

Name: Travis Dray Stewart
Address: 2215 S Nogales Ave
Tulsa OK 74107-2825
Birthdate: 11/7/1979
Enrollment Date: February 7, 1990
Roll Number: 42991
Degree of Creek Blood: 1/16

I hereby certify that Travis Dray Stewart, DOB:
11/7/1979 is enrolled with the Muscogee (Creek) Nation.
Enrollment Date: 2/7/1990 Roll Number: 42991, Degree
of Creek Blood: 1/16
Sincerely,
/s/ Nathan Wilson
Director
Muscogee (Creek) Nation Citizenship Office

App.23a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 21, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
TRAVIS DRAY STEWART,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
No. F-2017-1223
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice Presiding Judge., Gary L.
LUMPKIN, Judge., Robert L. HUDSON, Judge.,
Scott ROWLAND, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Petitioner, Travis Dray Stewart, was charged in
Tulsa County District Court, Case No. CF-2010-4428,
with Child Sexual Abuse, After Former Conviction
of Two Felonies, in violation of 10 O.S.Supp.2002,

App.24a
§ 7115(E).1 Petitioner entered a blind guilty plea to
the charge on May 15, 2012, before the Honorable
Dana Kuehn, Associate District Judge. The trial court
accepted Petitioner’s plea and deferred sentencing
pending the completion and filing of a presentence
investigation report. On June 29, 2012, Judge Kuehn
sentenced Petitioner to thirty years imprisonment
and a $500.00 fine. Petitioner must serve 85% of his
sentences before becoming eligible for parole consideration. 21 O.S.Supp.2002, § 13.1.
On July 9, 2012, Petitioner filed a motion to withdraw his blind plea. A hearing on Petitioner’s motion
was held on November 21, 2017, before the Honorable James Caputo, District Judge.2 After hearing
testimony from Petitioner and plea counsel, along
with argument from counsel for both parties, Judge
Caputo denied Petitioner’s motion to withdraw his
plea. Petitioner now seeks a writ of certiorari.
In Proposition One, Petitioner claims the District
Court lacked jurisdiction to accept his plea. Petitioner
argues that he is a citizen of the Creek Nation and
the crime occurred within the boundaries of the Creek
Reservation.

1 Both the Information and Judgment and Sentence cite Section
843.5 of Title 21 as the statute violated by Appellant. The alleged
crime occurred between June 1, 2003, and September 13, 2005.
Section 7115 of Title 10 was not renumbered as 21 O.S.Supp.2009,
§ 843.5 until May 21, 2009. Thus, the version of the child sexual
abuse statute in effect at the time of Appellant’s crimes was
Section 7115 of Title 10.
2 The delay in Petitioner’s withdrawal hearing is the subject of
Petitioner’s Proposition Two.

App.25a
Pursuant to McGirt v. Oklahoma, No. 18-9526
(U.S. July 9, 2020), Petitioner’s claim raises two separate questions: (a) his Indian status and (b) whether
the crime occurred on the Creek Reservation. These
issues require fact-finding. We therefore REMAND
this case to the District Court of Tulsa County, for an
evidentiary hearing to be held within sixty (60) days
from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Petitioner’s presentation
of prima facie evidence as to the Petitioner’s legal
status as an Indian and as to the location of the crime
in Indian Country, the burden shifts to the State to
prove it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues.
First, the Petitioner’s status as an Indian. The
District Court must determine whether (1) Petitioner
has some Indian blood, and (2) is recognized as an
Indian by a tribe or the federal government.3

3 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir.

App.26a
Second, whether the crime occurred on the Creek
Reservation. In making this determination the District
Court should consider any evidence the parties provide,
including but not limited to treaties, statutes, maps,
and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Petitioner, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions
of law and supplemental briefing shall occur as set
forth above.

2012); United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir.
2001).

App.27a
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Tulsa County:
Petitioner’s Brief in Chief, filed May 8, 2018; and
Respondent’s Response Brief, filed October 16, 2018.
The present order renders MOOT any request made
to date for supplemental briefing by either party in
this case as well as any request to file an amicus brief.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 21st day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

